No. __________

In the Supreme Court of the United States
UNITED STATES OF AMERICA,
Plaintiff/Appellee,
v.
BUCK LEON HAMMERS,
Defendant/Appellant.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

DEFENDANT/APPELLANT’S APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR A WRIT OF CERTIORARI

Ryan A. Ray, OBA # 22281
NORMAN WOHLGEMUTH CHANDLER
JETER BARNETT & RAY, P.C.
2900 Mid-Continent Tower
401 South Boston Avenue
Tulsa, OK 74103
Telephone: 918-583-7571
Facsimile: 918-584-7846
rar@nwcjlaw.com
Dated: February 28, 2020

Counsel of Record

DEFENDANT/APPELLANT’S APPLICATION FOR EXTENSION OF
TIME TO FILE PETITION FOR A WRIT OF CERTIORARI
To the Honorable Sonia M. Sotomayor, Associate Justice of the United
States Supreme Court and Circuit Justice for the Tenth Circuit:
In accordance with Rules 13.5, 30.2, and 30.3 of the Rules of the Supreme
Court of the United States, and for the reasons set forth herein, the
undersigned counsel, on behalf of Defendant/Appellant, Buck Leon Hammers,
respectfully applies to this Court for an order extending the time in which to
file a petition for a writ of certiorari from March 11, 2020, until Friday, April
10, 2020, a period of thirty (30) days. In support of this Application, counsel
for the Defendant/Appellant would show the Court as follows:
BACKGROUND
Mr. Hammers is incarcerated by the United States Bureau of Prisons
under the convictions and sentences at issue in the lower-court proceedings.
He is serving a sentence of one hundred eight (108) months.
On November 12, 2019, the United States Court of Appeals for the Tenth
Circuit issued a published Opinion in Case No. 18-7051, styled United States
v. Buck Leon Hammers, wherein the circuit court affirmed the original
judgment entered by the United States District Court for the Eastern District
of Oklahoma in Case No. 17-CR-33-RAW. See Opinion, attached hereto as
Attachment A. The Defendant/Appellant sought rehearing, which the circuit

court denied on December 12, 2019. See Order, attached hereto as Attachment
B.
ARGUMENT AND AUTHORITIES
Petitioner seeks a writ of certiorari to the United States Court of Appeals
for the Tenth Circuit, with respect to its decision rendered on November 12,
2019, as referenced above. This Court's jurisdiction to grant the same arises
in accordance with 28 U.S.C. § 1254(1). According to Supreme Court Rule 13.3,
a petition for writ of certiorari to the United States Court of Appeals for the
Tenth Circuit is due on or before March 11, 2020. See Supreme Court Rule
13.3 (“the time to file the petition for a writ of certiorari . . . runs from the date
of the denial of rehearing . . .”). But in this case, the time granted by Supreme
Court Rule 13 will be insufficient to allow the Defendant/Appellant’s counsel
to do justice to the issues at hand. Thus, the Defendant/Appellant seeks an
extension of thirty (30) days in which to file his petition for a writ of certiorari,
which is less than could be sought but the amount actually needed here. See
Supreme Court Rule 13.5 (“[A] Justice may extend the time to file a petition
for writ of certiorari for a period not exceeding 60 days”).
In accordance with Supreme Court Rule 13.5, this Application is
submitted at least ten (10) days prior to the present due date. Further, the
requested extension is made in good faith and not for the purpose of delay. The
2

requested extension is made because of the important issues presented here,
the fact that counsel was only recently retained for purposes of pursuing a
petition for certiorari in this Court, and counsel’s numerous other pending
obligations in other criminal and civil matters during the past thirty (30) days.
Mr. Hammers intends to present to the Court issues relating to
sufficiency of the evidence in the unique context presented here and the
constitutional limitations on the exclusion of exculpatory evidence, which
occurred here by virtue of the exclusion of a suicide note that exculpated Mr.
Hammers. No court has adequately considered the constitutional issue though
it has been raised at every stage and this failure is inconsistent with this
Court’s authority.
Mr. Ray, the undersigned, is sole appellate counsel to Mr. Hammers. Mr.
Ray maintains an active civil practice, as well as an active criminal practice.
Mr. Ray serves on the Criminal Justice Act Panel for the United States District
Court for the Northern District of Oklahoma and on the Criminal Justice Act
Panel for the United States Court of Appeals for the Tenth Circuit. In the
latter role, Mr. Ray is currently sole and lead counsel in United States of
America v. Mario Caballero-Anaya, Case No. 19-1034, U. S. Court of Appeals
for the Tenth Circuit, United States of America v. Jalil Lemason Robinson,
Case No. 19-1256, U. S. Court of Appeals for the Tenth Circuit, and United
States of America v. Troy Anthony Lujan, Case No. 19-1442, U. S. Court of
3

Appeals for the Tenth Circuit. Caballero-Anaya was orally argued at the Tenth
Circuit on January 23, 2020, and Robinson and Lujan have had recent briefing
deadlines.
Mr. Ray—as a member of the Criminal Justice Act Panel for the
Northern District of Oklahoma—is sole and lead trial counsel in United States
v. Marisca Pacheco, et al., Case No. CR-19-73-RAW (E.D. Okla.), an extremely
complex criminal RICO case with massive and voluminous discovery, set for
trial on May 5, 2020.

Mr. Ray has also recently completed substantial

sentencing briefing—as sole and only counsel—in United States v. Hongjin
Tan, Case No. 19-cr-9-GKF (N.D. Okla.), a criminal trade secrets case with
numerous complex issues. Sentencing in Tan was held on February 27, 2020,
and there were hundreds of pages of briefs on sentencing issues were drafted
and filed in February of 2020.
In light of counsel's current obligations, recent retention for proceedings
in this Court (which occurred in February, 2020) and the importance of the
Constitutional issues that will be presented in this case, counsel submits that
a thirty (30) day extension is necessary and appropriate in order to efficiently
and effectively prepare the petition for certiorari on behalf of Mr. Hammers.

4

WHEREFORE, in the interest of justice and for good cause shown, counsel
submits that a reasonable extension of time should be granted within which to
file a petition for certiorari on behalf of Mr. Hammers. Counsel respectfully
requests, pursuant to Supreme Court Rule 13.5, this Court extend the current
March 11, 2020 deadline until Friday April 10, 2020.

Respectfully submitted,
/s/ Ryan A. Ray
Ryan A. Ray, OBA # 22281
NORMAN WOHLGEMUTH CHANDLER
JETER BARNETT & RAY, P.C.
2900 Mid-Continent Tower
401 South Boston Avenue
Tulsa, OK 74103
Telephone: 918-583-7571
Facsimile: 918-584-7846
rar@nwcjlaw.com
ATTORNEY FOR
DEFENDANT/APPELLANT,
BUCK LEON HAMMERS

5

